TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                     RECOVERY ACT


                            Initial Build America Bond
                        Subsidy Payments Were Processed
                              Accurately and Timely



                                           July 14, 2010

                              Reference Number: 2010-11-083




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


INITIAL BUILD AMERICA BOND                          WHAT TIGTA FOUND
SUBSIDY PAYMENTS WERE
                                                    TIGTA determined that, generally, all complete
PROCESSED ACCURATELY AND                            requests for payment of the Build America Bond
TIMELY                                              Federal subsidies were processed accurately,
                                                    timely, and without indications of fraudulent or
                                                    erroneous disbursement. The total amount of
Highlights                                          Federal subsidy payments was more than
                                                    $110 million for the 80 bond issuances
Final Report issued on July 14, 2010                requesting payment by the time of our review.

Highlights of Reference Number: 2010-11-083         To achieve this, Internal Revenue Service
to the Internal Revenue Service Commissioner        management provided instructions for using
for the Tax Exempt and Government Entities          Information Returns for Build America Bonds,
Division.                                           created the Subsidy Request Form for bond
                                                    issuer use in requesting Federal subsidy
IMPACT ON TAXPAYERS                                 payments, updated processing for Build America
                                                    Bond forms, created manual processes, and
The American Recovery and Reinvestment Act          programmed computer systems to process the
of 2009 (Recovery Act) created a new type of        Federal Subsidy payments. While minor
bond, known as the Build America Bond, for          problems were encountered when processing
which the Federal Government will partially         the initial Information Returns, the problems
offset the State and local governments’ cost of     were identified and corrected, and all State and
paying bond interest. As of September 2009,         local governments submitting complete Subsidy
State and local governments received almost         Request Forms from May 2009 through
$26.4 billion in funding for capital improvements   September 2009 received the correct Federal
through 315 Build America Bond issuances.           subsidy payments.
Generally, all complete requests for payment of
Build America Bond Federal subsidies were           WHAT TIGTA RECOMMENDED
processed accurately, timely, and without
indications of fraudulent or erroneous              TIGTA made no recommendations in this report.
disbursement. As a result, the public has           Tax Exempt and Government Entities Division
assurance that Federal subsidy payments             management reviewed the report prior to
reduced the cost of financing, as intended by       issuance and agreed with the facts and
Congress, by more than $110 million.                conclusions presented.

WHY TIGTA DID THE AUDIT
The Recovery Act authorized the issuance of
$17 billion in additional tax-exempt bonds and
greatly expanded the market for tax credit bonds
by at least $28.4 billion. Proceeds from these
bonds are intended to provide State and local
governments funding for capital projects such as
construction of highways, bridges, or schools.
The overall objective of this review was to
assess whether the Tax Exempt Bonds office
had developed and implemented controls to
assure the direct subsidies for Build America
Bonds (direct payment option) were accurate
and timely and whether controls prevented
disbursement of erroneous payments.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 14, 2010


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Initial Build America Bond Subsidy Payments
                                 Were Processed Accurately and Timely (Audit # 200910136)

 This report presents the results of our review of the Internal Revenue Service’s processing of
 Build America Bond Federal subsidy payments under the American Recovery and Reinvestment
 Act of 2009 (Recovery Act). 1 The overall objective of this review was to assess whether the Tax
 Exempt Bonds office had developed and implemented controls to assure the direct subsidies for
 Build America Bonds (direct payment option) were accurate and timely and whether controls
 prevented disbursement of erroneous payments. This review was conducted as part of the
 Treasury Inspector General for Tax Administration Office of Audit Fiscal Year 2010 Annual
 Audit Plan and addresses the major management challenge of Tax Compliance Initiatives.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of Internal
 Revenue Service programs. This audit was conducted using Recovery Act funds.
 We did not make any recommendations in this report. However, Tax Exempt and Government
 Entities Division management reviewed it prior to issuance and agreed with the facts and
 conclusions presented.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report finding. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.



 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                         Initial Build America Bond Subsidy Payments Were
                                   Processed Accurately and Timely




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Federal Direct Subsidy Payments for Build America Bonds
          Were Accurate, Timely, and Did Not Have Indications of
          Fraud .............................................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Build America Bond Processes............................................Page 15
                     Initial Build America Bond Subsidy Payments Were
                               Processed Accurately and Timely




                                            Background

The American Recovery and Reinvestment Act of 2009 1 (Recovery Act) was enacted on
February 17, 2009, and authorized the issuance of $17 billion in additional tax-exempt bonds 2
and greatly expanded the market for tax credit bonds 3 by at least $28.4 billion. 4 In contrast,
during Calendar Year 2006, State and local governments issued $428.3 billion in tax-exempt
bonds, 5 and tax credit bonds were only a small part of the bond market.
Build America Bonds were created by the Recovery Act in response to the unprecedented
challenge that State and local governments encountered accessing the credit markets during
Calendar Year 2008. During that time, banks and other financial institutions suffered significant
investment losses and reduced their involvement in tax-exempt municipal bonds. As a result,
State and local governments were unable to easily obtain funding for capital projects such as
construction of highways, bridges, or schools.
To alleviate this situation and potentially lessen the costs of
borrowing, the Recovery Act introduced Build America             Build America Bonds are
Bonds to provide State and local governments with the            attractive to bond issuers
option of accessing the corporate 6 taxable bond market to      because issuers can choose
obtain funding for capital improvements. Bond investors              to have the Federal
                                                                Government pay part of the
earn interest income on their Build America Bond                  cost of bond financing.
investment, which is paid by the State or local government
that issued the bonds. Unlike tax-exempt bonds, Build
America Bond bondholders must claim this interest income on their tax returns for the bond
interest payments. Build America Bonds can be issued with a direct payment option or a tax
credit option.



1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Tax-exempt bonds are issued by State or local governments, and the interest income paid by the bond issuer to
bond investors is not taxable by the Federal Government.
3
  Tax credit bonds are issued by State or local governments, and an investor must include the total interest income
received in gross income. The amount of the tax credit available to a bondholder on each credit date is a percentage
of the credit rate multiplied by the outstanding face amount of the bond.
4
  This figure could be much higher because one type of bond, known as Build America Bonds, was not limited in the
total dollar amount that can be issued through December 31, 2010.
5
  This information was published by the Internal Revenue Service Statistics of Income Division and was the latest
year available. Since the accuracy of this Internal Revenue Service-provided statistic did not affect the
accomplishment of our audit objective, we did not verify its accuracy.
6
  Corporate bonds are debts issued by industrial, financial, and service companies to finance capital investment and
operating cash flow.
                                                                                                           Page 1
                      Initial Build America Bond Subsidy Payments Were
                                Processed Accurately and Timely




    •    Direct Payment Option – Under the direct payment option, the Department of the
         Treasury pays either the bond issuer or a designated third party 35 percent of the interest
         payable to bond investors. This partially offsets the State and local governments’ cost of
         paying bond interest.
    •    Tax Credit Option – Under the tax credit option, bondholders receive a tax credit that
         can be applied against their Federal income tax liability equal to 35 percent of the bond
         coupon interest.
Recovery Zone Economic Development Bonds are a special type of Build America Bond that
provides incentives for State and local governments to promote job creation and economic
recovery in areas particularly affected by increases in unemployment. These bonds provide a
larger Federal subsidy under the direct payment option by paying the issuers an amount equal to
45 percent (rather than 35 percent) of the cost of the bond interest. Recovery Zone Economic
Development Bonds have a limitation of $10 billion that may be issued through
December 31, 2010.
For the period April through September 2009, 315 Information Returns for Tax-Exempt
Governmental Obligations (Form 8038-G), 7 hereafter referred to as Information Returns, were
filed by State and local governments notifying the Internal Revenue Service (IRS) of the
issuance of Build America Bonds. 8 For the same time period, 80 9 Returns for Credit Payments
to Issuers of Qualified Bonds (Form 8038-CP), hereafter referred to as Subsidy Request Forms,
were filed requesting Federal subsidy payments.
Bond issuers pay interest to bond investors on dates that are predetermined at the time the bond
is issued. Subsidy Request Forms must be filed at least 45 calendar days before, but not earlier
than 90 calendar days before, the issuer’s interest payment date. Issuers should expect to receive
requested Federal subsidy payments within 45 calendar days of the date that a complete 10
Subsidy Request Form is filed with the IRS. If the IRS receives an incomplete or incorrect
Subsidy Request Form, minor information such as an address will be corrected. However, the
form will be returned to the issuer for significant inaccuracies such as no signature or bond issue
price.
The Tax Exempt Bonds office within the Tax Exempt and Government Entities Division is
responsible for administering the new Recovery Act bonds. All bond forms are filed at the



7
  Information Returns must be filed on or before the 15th day of the 2nd calendar month after the close of the calendar
quarter in which the bond is issued.
8
  This includes Recovery Zone Economic Development Bonds.
9
  One additional Subsidy Request Form was not complete when received and was returned to the bond issuer for
completion.
10
   A complete Subsidy Request Form has all required information and is ready for processing by the IRS.
                                                                                                              Page 2
                     Initial Build America Bond Subsidy Payments Were
                               Processed Accurately and Timely



Ogden Campus 11 and processed by IRS Wage and Investment Division employees. This audit
occurred at a time when IRS controls over Build America Bond payment processing were
evolving. Therefore, this report reflects processing controls that were in effect when Information
Returns and Subsidy Request Forms were filed as of September 30, 2009. As a result, this report
may not reflect the current status of IRS procedures related to processing Build America Bond
forms.
This review is the Treasury Inspector General for Tax Administration’s third audit related to the
IRS’ implementation of tax-exempt and tax credit bond Recovery Act provisions. Our first audit
concluded that the IRS will need to be vigilant to ensure that Recovery Act bonds are not issued
in excess of annual limits or the Federal Government risks losing future tax revenue because
excess bonds may not be eligible for tax credits or may be taxable. The Tax Exempt Bonds
office believes it has taken steps to ensure it is adequately monitoring the volumes of Recovery
Act bonds. 12 Our second audit concluded that the initial guidance published by the IRS in the
form of notices 13 was complete, 14 accurate, and consistent with the tax-exempt and tax credit
bond requirements of the Recovery Act. 15 A future audit is planned to assess the IRS’ process
for identifying Build America Bonds with a potential for noncompliance.
This review was performed at the Tax Exempt and Government Entities Division Headquarters
Office in Washington, D.C., and the Tax Exempt and Government Entities Division Business
Systems Planning Submission Processing office located at the Ogden Campus in Ogden, Utah,
during the period September 2009 through April 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.



11
   The campuses process paper and electronic submissions, correct errors, and forward data to the Computing
Centers for analysis and posting to taxpayer accounts.
12
   Observations About Annual Dollar Limits for American Recovery and Reinvestment Act of 2009 Bonds (Reference
Number 2010-11-016, dated January 8, 2010).
13
   Notices are public pronouncements by the IRS that contain guidance involving substantive interpretations of the
Internal Revenue Code or the law.
14
   The Treasury Inspector General for Tax Administration defines complete as addressing all Recovery Act bond
provisions. This is not an indication that the current guidance is final and that additional guidance will not be
issued. The IRS can issue additional guidance as issues arise or when interpretations of the law are needed. In
addition, the Tribal Economic Development Bonds Notice did not contain the effective date of the Recovery Act
provision. This notice was not considered to be incomplete because it is an interpretation of laws already in effect.
15
   Initial Published Guidance for American Recovery and Reinvestment Act of 2009 Bonds Was Complete, Accurate,
and Consistent (Reference Number 2010-11-035, dated March 16, 2010).
                                                                                                            Page 3
                     Initial Build America Bond Subsidy Payments Were
                               Processed Accurately and Timely




                                      Results of Review

Federal Direct Subsidy Payments for Build America Bonds Were
Accurate, Timely, and Did Not Have Indications of Fraud
Our review determined that, generally, all complete requests for payment of the Build America
Bond Federal subsidies were processed accurately, timely, 16 and without indications of
fraudulent or erroneous disbursement. State and local governments received almost $26.4 billion
in funding for capital improvements through 315 bond issuances. The Federal subsidy payment
reduced the cost of financing, as intended by Congress, by more than $110 million for
80 bond issuances requesting payment by the time of our review.
To achieve this, IRS management provided instructions for using Information Returns for Build
America Bonds, created the Subsidy Request Form for use in requesting Federal subsidy
payments, updated IRS processing for Build America Bond forms, created manual processes,
and programmed IRS computer systems to process the Federal subsidy payments. 17 While minor
problems were encountered when processing the initial Information Returns, the problems were
identified and corrected and all State and local governments submitting complete Subsidy
Request Forms from May 2009 through September 2009 received Federal subsidy payments.

Federal subsidy payments for Build America Bonds were accurate
Controls and procedures developed and implemented by the IRS assured all 80 Federal subsidy
payments that had completed processing by the time of our review were accurate. For the
purpose of this report, accurate is defined as the correct subsidy payment amount paid to the
correct recipient. To verify the accuracy of the payments, we reviewed all 80 Subsidy Request
Forms, associated Information Returns, and related IRS records. We then recalculated the
Federal subsidy payments to ensure the payments were processed in the correct amount and
checked to ensure that the payments were made to the correct recipients.
     •   Controls assured that all 80 payment requests were from known bond issuers. The
         bond issuers requesting payment through submission of the Subsidy Request Forms were
         the same as those listed on the Information Returns and the IRS Master File. 18 In

16
   One Federal subsidy was not paid timely because it appeared to be a potential duplicate request and required
further review.
17
   See Appendix IV for additional information on Build America Bond processes.
18
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                            Page 4
                      Initial Build America Bond Subsidy Payments Were
                                Processed Accurately and Timely



         addition, research was performed by the Tax Exempt Bonds office 19 prior to releasing the
         Federal subsidy payments to verify that the filers of the Information Returns and the
         Subsidy Request Forms were known bond issuers. This ensures Federal subsidy requests
         are from established bond issuers and the requests are valid.
     •   Controls assured all 80 subsidy payments were issued to the correct recipients.
         Fifty-four (68 percent) of the 80 Federal subsidy payments were made to the bond
         issuers. The remaining 26 Subsidy Request Forms designated that the Federal subsidy
         payment should be sent to a third party. Bond issuers can enter into agreements with
         third parties, such as trustee banks, for the third party to make the periodic interest
         payments to bond investors instead of the bond issuers.
         o 22 of 26 designated Federal subsidy payments were sent to trustee banks to make the
           issuer’s interest payments.
         o 4 of 26 designated Federal subsidy payments were sent to a different office within the
           same State or local government that issued the bonds.
Based on this information, we determined that sending the 26 payments to designated third-party
addresses was reasonable. Currently, the IRS does not send confirmation to the bond issuer
when a payment is made to a third party on its behalf. IRS management stated that beginning in
July 2010, a notice will be sent to each Build America Bond filer to acknowledge receipt of the
Subsidy Request Form. The notice will show the credit interest payment and suggest the third-
party filer provide a copy of the notice to the bond issuer.
     •   Controls assured all 80 Federal subsidy payment amounts were correct. All
         80 Federal subsidy payments processed by the IRS were correct based on our
         recalculations. 20 To verify the subsidy payment amounts are correct, IRS employees and
         computer systems recalculate Federal subsidy payment amounts submitted by bond
         issuers when processing Subsidy Request Forms. IRS employees and computer systems
         identified the following errors.
         o Two Subsidy Request Forms had the bond interest calculated incorrectly by the bond
           issuers on the Subsidy Request Form. Tax Exempt Bonds office personnel identified
           this condition and contacted the bond issuers and obtained agreement for correction
           of errors prior to processing the Federal subsidy payments.



19
   Tax Exempt Bonds office employees access the Internet web site “Electronic Municipal Market Access,” which
contains municipal bond trading statistics and trends. The Electronic Municipal Market Access web site provides a
snapshot of daily trade data based on municipal bond characteristics such as trade type, size, sector, maturity, source
of repayment, and type of coupon.
20
   For six cases, we determined the payment was different than the subsidy amount requested because the subsidy
was reduced by the amount of prior tax obligations or the IRS paid interest on late subsidy payments.
                                                                                                               Page 5
                  Initial Build America Bond Subsidy Payments Were
                            Processed Accurately and Timely



       o One Subsidy Request Form included a transposed number in the Federal subsidy
         payment amount. This error was corrected by IRS computer systems while
         processing the Federal subsidy payment.
The Internal Revenue Manual permits correction of the Subsidy Request Forms by processing
employees or by Tax Exempt Bonds office agents if minor errors are identified. When dollar
value errors are identified, Tax Exempt Bonds office agents forward a document to the bond
issuer explaining the error and requesting that the issuer sign and return the document signifying
agreement to the change. Tax Exempt Bonds office management provides instructions to the
Government Entities Compliance Unit to make the appropriate correction and to attach the
document signed by the bond issuer to the Subsidy Request Form for completion of processing
and payment.

Federal subsidy payments for Build America Bonds were timely
Controls and procedures developed and implemented by the IRS assured that 79 of 80 Federal
subsidy payments processed by the time of our review were timely. We reviewed all
80 complete Subsidy Request Forms that were received by the IRS and related IRS records for
the Federal subsidy payments to ensure the payments were processed within the IRS’
45-calendar day time standard. We determined the dates that Subsidy Request Forms were
received by the IRS and the dates the Federal subsidy payment transactions were posted to the
IRS Master File and identified the following:
   •   79 of the 80 Federal subsidy payments were made within 45 calendar days after receipt of
       complete Subsidy Request Forms. Eight of the 79 initially appeared to have been paid
       late, but further review determined the forms were received incomplete and returned to
       the issuers for correction. After receipt of the corrected forms, all 8 payments were paid
       within the 45-calendar day standard.
   •   1 of the 80 Federal subsidy payments was paid more than 45 calendar days after receipt
       of the Subsidy Request Form. This payment was systemically identified as a potential
       duplicate payment request and was rejected by the IRS’ computer system. IRS
       employees performed research to ensure the payment request was not fraudulent or
       erroneous, determined the form was not a duplicate, and processed the payment manually
       to ensure the fastest payment possible. However, the payment was made 53 calendar
       days after receipt of the Subsidy Request Form, thereby exceeding the 45-calendar day
       standard. Because payment guidelines were exceeded, the IRS paid interest to the
       customer for making the payment 8 calendar days late. Eight additional Subsidy Request
       Forms had similar characteristics and could have been systemically identified as
       potentially duplicate payment requests; however, they were corrected timely and paid
       within the 45-calendar day standard. Therefore, we viewed the one late payment as an
       isolated incident.


                                                                                            Page 6
                      Initial Build America Bond Subsidy Payments Were
                                Processed Accurately and Timely



No indications of fraudulent or erroneous disbursements were identified for initial
Build America Bond subsidy payments
The Government Accountability Office reported that when assessing risks, agencies receiving
funds for Recovery Act programs should consider whether their internal controls are sufficient to
decrease the risk of fraud, waste, and abuse. Also, in recent testimony before Congress, the
Government Accountability Office stated,
           Our work has shown that building internal controls in up front is of the utmost
           importance and that fraud prevention is the most efficient and effective means to
           minimize fraud, waste, and abuse. Once Federal dollars are disbursed fraudulently or
           improperly, the Government is only likely to recover a few pennies on the dollar. Thus,
           preventive controls are the most important component of a fraud prevention system.
           These controls prevent ineligible individuals and questionable firms from gaining access
           to Government funds in the first place.
We determined there were no indications of fraudulent or erroneous disbursements in the
80 initial Federal subsidy payments that the IRS processed. To test for potentially fraudulent or
erroneous disbursements, we reviewed areas vulnerable to fraud or mistakes, such as
inappropriate address changes, amended and duplicate returns, and manually processed
payments. The IRS had designed preventive controls to reduce the chances of fraudulent or
erroneous disbursements.
       •   Address changes were reasonable. The filing of a Change of Address form 21 followed
           by the filing of a Subsidy Request Form could be an indication that someone is trying to
           divert funds to a new address inappropriately. Address changes occurred for
           7 (9 percent) of 80 Federal subsidy payment requests within 3 weeks of the Federal
           subsidy payment date. However, none of the address changes indicated any potential for
           fraudulent or erroneous disbursement of the Federal subsidy payment.
           o For three of seven address changes, the bond issuer and the recipient were the same
             entity. Rather than indicating a potential fraudulent or erroneous disbursement, these
             address changes indicate that the addresses were changed to ensure the Federal
             subsidy payments were sent to the correct department of the entity.
           o For four of seven address changes, the recipients were large banks or trusts, or
             departments within a State government. The address changes were reasonable
             because State and local governments often enter into agreements with trustee banks to
             make their periodic interest payments to investors. In addition, departments within
             State and local governments other than those that file Information Returns may make
             the periodic interest payments to investors.


21
     Change of Address (Form 8822).
                                                                                             Page 7
                     Initial Build America Bond Subsidy Payments Were
                               Processed Accurately and Timely



The IRS has reduced the chance of fraudulent or erroneous disbursements associated with
address changes by implementing controls to verify that the correct recipient and address are
being used for each Federal subsidy payment before the payments are disbursed, as discussed
previously in this report.
     •   Amended or duplicate payment requests were not submitted. Amended or duplicate
         Subsidy Request Forms can be filed in an attempt to change the payment amount or to
         obtain a duplicate payment. Duplicate Subsidy Request Forms could also be filed
         inadvertently. Our review of IRS Master File data and Subsidy Request Forms did not
         identify any duplicate or amended payment requests. However, the IRS reduced the
         chance of making an improper payment due to receipt and processing of amended or
         duplicate requests. This is accomplished by reviewing every Subsidy Request Form that
         is filed and by maintaining a database that has information on Subsidy Request Form
         filings to allow verification of the payment requests.
     •   Controls assured manually processed payments were reasonable. Payments that are
         processed manually have an increased risk of fraud because an IRS employee could
         potentially change the payee or the address and redirect the manual payment for his or
         her personal use. In addition, manual procedures are subject to human error. The IRS
         manually processed 10 (13 percent) of 80 Federal subsidy payments (the remaining
         payments were computer generated) according to IRS guidelines in place when the
         Subsidy Request Forms were received. In July 2009, IRS guidelines were changed to
         allow processing of computer-generated Federal subsidy payments up to $10 million due
         to the expected large volume of subsidy payment requests. Payments processed before
         and after the guidelines change were processed properly, according to the guidelines in
         place at the time. 22 All 10 manual payments appeared to be reasonable and correct,
         without suspicious activity such as address changes or redirected payments.
The IRS has reduced the chance of fraudulent or erroneous disbursements related to manually
processed refunds by implementing the following controls for all manual payments. 23 All
manual payment requests must be reviewed and approved by a manager who is an authorized
signer for manual payments. After approval by the manager, another employee reviews the
forms and the customer account on the IRS Master File to identify any outstanding tax
obligations and to ensure the credit is available 24 for payment. All requests for manual payments
must be controlled and monitored on the IRS’ computer systems by the initiator (or other

22
   Two Federal subsidy payments more than $10 million were processed correctly as manual payments and
8 additional Federal subsidy payments less than $10 million were processed manually because they were either in
jeopardy of being paid late or were processed prior to the IRS decision to computer generate payments less than
$10 million.
23
   A manual payment is a payment that is not generated through normal IRS Master File processing.
24
   A credit in the amount of the subsidy payment must be input to the customer account before payment can be
made.
                                                                                                          Page 8
                  Initial Build America Bond Subsidy Payments Were
                            Processed Accurately and Timely



employee designated by management) to prevent duplicate or erroneous refunds. Each month,
random reviews of manual payment requests are performed to detect and deter inappropriate
adjustment activities.
Based on our review of how address changes, amended or duplicate returns, and manual
payments associated with the 80 requests were processed, we believe the IRS has established
controls that are reasonable to prevent erroneous or fraudulent disbursement of Federal subsidy
payments on Build America Bonds.




                                                                                          Page 9
                     Initial Build America Bond Subsidy Payments Were
                               Processed Accurately and Timely




                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess whether the Tax Exempt Bonds office had developed and
implemented controls to assure the direct subsidies for Build America Bonds (direct payment
option) were accurate and timely and whether controls prevented disbursement of erroneous
payments. To accomplish our objective, we:
I.      Determined whether the Tax Exempt Bonds office developed and implemented controls
        for Build America Bond (direct payment option) payment processing.
        A. Determined whether procedures were implemented to identify and associate (when
           filed) the Build America Bond Information Returns and Subsidy Request Forms.
        B. Determined whether procedures were implemented for timely processing of Build
           America Bond subsidy payments.
        C. Determined whether procedures were implemented for accurately issuing Build
           America Bond direct subsidy payments, including the receipt of amended and
           duplicate requests.
II.     Obtained paper and electronic data for Build America Bond Information Returns and
        Subsidy Request Forms.
        A. Obtained an extract of Build America Bond Information Returns and Subsidy
           Request Forms from the IRS Master File. 1 From the extract we identified
           315 Information Returns filed between April and September 2009, and 80 Subsidy
           Request Forms filed between May and September 2009. We validated the data
           extract by comparing the data to the scanned images of the filed Information Returns
           and Subsidy Request Forms, comparing the data to information on the Integrated
           Data Retrieval System, 2 and recalculating the subsidy payment dollar amounts.
        B. Obtained copies of Information Returns and Subsidy Request Forms related to the
           data extract as of September 30, 2009.




1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 10
                     Initial Build America Bond Subsidy Payments Were
                               Processed Accurately and Timely



III.    Determined whether the controls established to process Build America Bond direct
        subsidies were working as intended.
        A. Determined the accuracy of the Build America Bond direct subsidy payments.
             1. Obtained and reviewed the guidelines developed for employees to verify the
                accuracy of Build America Bond direct subsidy payments.
             2. Determined whether the bond issuer listed on the Information Return was also
                listed as the issuer on the Subsidy Request Form and whether a payment recipient
                was designated on the Subsidy Request Form.
             3. Determined whether the correct subsidy payment amounts were processed for
                Build America Bonds by identifying (and recalculating) the payment amount
                calculated by the issuer on the Subsidy Request Form and comparing it to
                payment information on the IRS Master File.
        B. Determined whether Build America Bond subsidy payments were made within
           45 calendar days of receipt of complete Subsidy Request Forms by identifying the
           IRS receipt date of the form and comparing it to the IRS Master File payment
           transaction date.
        C. Assessed the risk of fraud occurring for Build America Bond direct subsidy
           payments. 3
             1. Performed Integrated Data Retrieval System research to determine if a change of
                address of record occurred immediately prior to receipt of Subsidy Request Forms
                requesting payment.
             2. Determined whether direct subsidy payments of $10 million and less were
                processed as computer-generated payments.
             3. Determined whether direct subsidy payments of greater than $10 million were
                processed manually. If so, we determined if subsidy payments were issued to the
                original name and address on the Subsidy Request Forms.
             4. Identified whether any amended or duplicate returns were processed and if
                erroneous payments were made.




3
  Absolute assurance that subsidy payments are not being redirected cannot be attained due to the nature and
characteristics of fraud. For example, two or more individuals acting in collusion can compromise any system of
internal controls.
                                                                                                         Page 11
                        Initial Build America Bond Subsidy Payments Were
                                  Processed Accurately and Timely



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Internal Revenue Code, the American
Recovery and Reinvestment Act of 2009, 4 and Tax Exempt Bonds office policies and procedures
for developing and implementing controls to assure the direct subsidies for Build America Bonds
(direct payment option) are accurate and timely to prevent fraudulent or erroneous
disbursements. We evaluated these controls by interviewing management and reviewing
Information Returns, Subsidy Request Forms, and other applicable documentation.




4
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                       Page 12
                Initial Build America Bond Subsidy Payments Were
                          Processed Accurately and Timely




                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Lead Auditor
Yolanda D. Brown, Auditor
Carol A. Rowland, Auditor
Brian W. Hattery, Information Technology Specialist




                                                                                  Page 13
                Initial Build America Bond Subsidy Payments Were
                          Processed Accurately and Timely




                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 14
                      Initial Build America Bond Subsidy Payments Were
                                Processed Accurately and Timely




                                                                                                  Appendix IV

                         Build America Bond Processes

In response to the American Recovery and Reinvestment Act of 2009, 1 new forms and
instructions were developed for bond issuers, and procedures and controls were implemented by
the IRS to process Build America Bond returns and Federal subsidy payments.
    •    Creating instructions for notifying the IRS when Build America Bonds are issued.
         An Information Return for Tax-Exempt Governmental Obligations (Form 8038-G), 2
         hereafter referred to as Information Return, is filed by issuers of tax-exempt
         governmental obligations 3 to: 1) notify the IRS that a bond has been issued; 2) provide
         the issuer’s name, address, and Employer Identification Number; and 3) provide
         information about the bond issuance, including a debt service schedule. 4 However, the
         Information Return was designed for other types of bonds. To allow for quick bond
         issuance and notification to the IRS, the Tax Exempt Bonds office used this existing form
         for Build America Bonds and provided instructions for bond issuers to add information
         on a specific line of the form to identify the bond as a Build America Bond. The IRS has
         since created a new bond information return to be used for Build America Bonds
         (presented later in this Appendix).
    •    Creating a form for bond issuers to request direct subsidy payments. The Return for
         Credit Payments to Issuers of Qualified Bonds (Form 8038-CP), hereafter referred to as
         Subsidy Request Form, was created in April 2009 for bond issuer use when requesting
         Federal subsidy payments.
    •    Processing Build America Bonds to the IRS Master File. 5 Instructions were
         developed to enable employees in the Ogden Submission Processing Center to recognize
         the Information Return as a Build America Bond from the additional information added
         by bond issuers. Also, processing changes were implemented for employees at the

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Information Returns must be filed on or before the 15th day of the 2nd calendar month after the close of the calendar
quarter in which the bond is issued.
3
  Tax-exempt obligations are used for such capital improvements as the construction of airports, hospitals, and
schools. However, tax-exempt government obligations can not be issued as private activity bonds. Private activity
bonds are municipal securities where the proceeds are used by private entities such as housing authorities or
community development authorities.
4
  A schedule that generally provides details about the issuer’s periodic interest payment dates, the total interest
payable, and the total principal outstanding.
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                             Page 15
              Initial Build America Bond Subsidy Payments Were
                        Processed Accurately and Timely



    Ogden Submission Processing Center to code Information Returns on the IRS Master File
    as Build America Bonds.
•   Verifying that subsidy requests are valid. Subsidy Request Forms, when received by
    the IRS for processing, are forwarded to the Government Entities Compliance Unit where
    they are scanned and forwarded to the Tax Exempt Bonds office. The Tax Exempt
    Bonds office verifies the bond issuance is valid and performs research to provide
    assurance that the Federal subsidy payment amount is correct and not fraudulently
    disbursed.
•   Processing subsidy payments. Generally, Federal subsidy payments less than
    $10 million are automatically generated by IRS systems, and payments greater than
    $10 million are manually processed by IRS employees.
    When a Federal subsidy payment is processed on the IRS’ computer systems, a
    transaction is systemically generated based on information from the Subsidy Request
    Form to allow the subsidy payment to be paid. The tax account for the subsidy payment
    will identify the issuer, recipient address, type of bond issuance, and subsidy payment
    amount processed. The subsidy payment amount is validated by the IRS’ computer
    systems based on the information from the Subsidy Request Forms.
•   Improving on initial processes. Subsidy Request Forms were updated in January 2010
    so that Build America Bond issuers could request a direct deposit of the Federal subsidy
    payment rather than a check. In addition, the Information Return initially used for Build
    America Bonds and Recovery Zone Economic Development Bonds (Form 8038-G) was
    replaced by the Information Return for Build America Bonds and Recovery Zone
    Economic Development Bonds (Form 8038-B), which was developed specifically for
    filers of Build America Bonds to provide required information to the IRS.




                                                                                      Page 16
